NO. 19-_____

In the
Supreme Court of the United States
GERALD CLAUDE CARLSON,

Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.
__________________________

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
PETITION FOR A WRIT OF CERTIORARI

JOHN HENRY BROWNE

COUNSEL OF RECORD

LAW OFFICES OF JOHN HENRY BROWNE, P.S.
801 SECOND AVENUE
SUITE 800
SEATTLE, WA 98104
(206) 388-0777
JOHNHENRY@JHBLAWYER.COM

FEBRUARY 24, 2020

COUNSEL FOR PETITIONER

i
QUESTIONS PRESENTED FOR REVIEW
1. Whether the Carlson Court’s Memorandum
Opinion conflicts with other Ninth Circuit
opinions holding that a finding of substantial or
undue delay is required to deny a criminal
defendant’s motion to terminate his retained
counsel pursuant to his Sixth Amendment right
to counsel of his choice and that the extent of
conflict inquiry is inapt in such circumstances?
2. Whether this Court should exercise its
supervisory powers where the Carlson Court
conceded that the District Court’s “description
of its reasons for denying the request [to
terminate retained counsel] may not have been
stated in the clearest and most comprehensive
of manner, it is apparent here that the denial
was primarily based on the demands of its
calendar” and where the District Court cited
only to the vaguest notions of efficiency and
neither court made a finding of substantial or
undue delay?
3. Whether the Carlson Court’s Memorandum
Opinion conflicts with other Ninth Circuit cases
holding that a court must balance a criminal
defendant’s Sixth Amendment right to counsel
of choice with the delay and inconvenience
resulting from the substitution of counsel?
4. Whether this Court should resolve an apparent
internal Circuit split regarding the proper
standard for a motion to terminate retained
counsel?

ii
PARTIES TO THE PROCEEDING
AND RELATED CASES
PARTIES
Petitioner: Gerald Claude Carlson
Respondent: United States of America
RELATED CASES
 United States of America, Plaintiff, v. Gerald
Claude Carlson, Defendant, No. 17-cr-05188RBL-1, U.S. District Court for the Western
District of Washington. Judgment entered on
April 27, 2018.
 United States of America, Plaintiff-Appellee, v.
Gerald Claude Carlson, Defendant-Appellant,
No. 18-30096, U.S. Court of Appeals for the
Ninth Circuit, No. 18-30096. Memorandum
opinion affirming Mr. Carlson’s convictions
entered November 7, 2019. The Court entered
its Order denying Mr. Carlson’s timely filed
Petition for Rehearing on November 26, 2019.

iii
PETITION TABLE OF CONTENTS
TABLE OF AUTHORITIES……………………………vi
PETITION FOR WRIT OF CERTIORARI…………...1

V.

I.

OPINIONS BELOW…………………………1

II.

JURISDICTIONAL STATEMENT………..1

III.

CONSTITUTIONAL PROVISION
INVOLVED…………………………….……..2

IV.

STATEMENT OF THE CASE……………...2
A.

INTRODUCTION………………………...2

B.

BACKGROUND FACTS………………...4

C.

FACTS RELEVANT TO THE
TRIAL COURT’S ERRONEOUS
DEPRIVATION OF MR. CARLSON’S
SIXTH AMENDMENT RIGHT
TO RETAINED COUNSEL OF HIS
CHOICE……………………………………5

D.

THE NINTH CIRCUIT’S
MEMORANDUM OPINION……………9

E.

PROCEDURAL HISTORY/ BASIS
FOR FEDERAL JURISDICTION……10

REASONS FOR GRANTING
THE PETITION……………..…………….……11

iv

VI.

A.

THE
CARLSON
COURT’S
MEMORANDUM OPINION CONFLICTS
WITH
OTHER
NINTH
CIRCUIT
DECISIONS HOLDING THAT ONLY
SIGNIFICANT DELAY CAN OVERRIDE A
DEFENDANT’S SIXTH AMENDMENT
RIGHT TO COUNSEL OF HIS OR HER
CHOICE AND THE EXTENT OF
CONFLICT INQUIRY DOES NOT APPLY
TO
MOTIONS
TO
SUBSTITUTE
RETAINED COUNSEL…………………....12

B.

THE
CARLSON
COURT’S
MEMORANDUM OPINION CONFLICTS
WITH OTHER NINTH CIRCUIT CASES
HOLDING THAT A COURT MUST
BALANCE A DEFENDANT’S SIXTH
AMENDMENT RIGHT TO COUNSEL OF
CHOICE WITH THE DELAY AND
INCONVENIENCE RESULTING FROM
SUBSTITUTION OF COUNSEL…………20

C.

THIS COURT SHOULD DETERMINE
WHEN
AND
UNDER
WHAT
CIRCUMSTANCES THE EXTENT-OFCONFLICT
INQUIRY,
WHICH
MANDATES REVERSAL, APPLIES…….23
1.

The Court’s Inquiry was Deficient……25

2.

The Conflict was Irreconcilable……….26

3.

The Motion was Timely………………...27

CONCLUSION………………………………….28

v
APPENDIX TABLE OF CONTENTS
Memorandum Opinion of the United States
Circuit Court for the Ninth Circuit
(November 7, 2019)……………………………………..1a
Judgment in a Criminal Case
(April 7, 2018)……………………………………………5a
Oral Colloquy and Bench Ruling Denying
Motion to Terminate Retained Counsel
(January 22, 2018)…………………...………………..17a
Order of the United States Circuit Court for the
Ninth Circuit Denying Petition for Rehearing
(November 26, 2019)………………………………….30a

vi
TABLE OF AUTHORITIES
Page(s)
CASES

Brown v. Craven,
424 F.2d 1166 (9th Cir. 1970)…………………………26

Daniels v. Woodford,

428 F.3d 1181 (9th Cir. 2005)………….…20-21, 24, 26

United States v. Adelzo–Gonzalez,

268 F.3d 772 (9th Cir. 2001)…….21, 22, 23, 24, 25, 26

United States v. Brown, 785 F.3d 1337 (9th Cir.
2015)…………...7, 13, 14, 15, 16, 17, 18, 19, 20, 23, 24

United States v. Carlson,

783 Fed.Appx. 781 (Mem) (9th Cir.)
(November 7, 2019)………… 1, 9-10, 12, 14, 19, 20, 24

United States v. D'Amore, 56 F.3d 1202 (9th Cir.
1995), overruled on other grounds by United States v.
Garrett, 179 F.3d 1143 (9th Cir. 1999)……………….26
United States v. Gonzales –Lopez,

548 U. S. 140, 126 S.Ct. 2557,
165 L.Ed.2d 409 (2006)…………….…13, 14, 17, 18, 19

United States v. Musa,

220 F.3d 1096 (9th Cir. 2000)…………………………26

United States v. Nguyen,

262 F.3d 998 (9th Cir. 2001)…………………22, 23, 26

vii

United States v. Rivera-Corona, 618 F.3d 976

(9th Cir. 2010)………..13, 14, 15, 16, 17, 18, 20, 23, 24

United States v. Velazquez,
855 F.3d 1021 (9th Cir. 2017)…….....21, 24, 25, 26, 27
CONSTITUTIONAL PROVISIONS
U.S. Const.,
Amend 6……...2, 4, 9, 12, 13, 14, 15, 17, 18, 20, 22, 26
STATUTES AND RULES
18 U.S.C. § 2……………………………………………..10
18 U.S.C. § 924(c)(1)(A)………………………………..10
18 U.S.C. § 3231………………………………………...10
21 U.S.C. § 841(a)(1)……………………………………10
21 U.S.C. § 841(b)(1)(A)…..……………………………10
28 U.S.C. § 1254(1)……………………………………….1
28 U.S.C. § 1291………………………………………...11
WDWa LCrR 23..1........................................................6

1
PETITION FOR WRIT OF CERTIORARI
Petitioner Gerald Carlson respectfully requests
that this Court issue a writ of certiorari to reverse the
decisions below and remand for new trial.
I.

OPINIONS BELOW

The Ninth Circuit’s Memorandum Opinion in

United States v. Carlson, 783 Fed.Appx. 781 (Mem)
(November 7, 2019), appears at Appendix 1a.
The District Court’s Judgment and Sentence
appears at Appendix 5a.
The Oral Colloquy and Bench Ruling Denying
Motion to Terminate Retained Counsel entered by the
United States District Court for the Western District
of Washington in No. CR17-5881-RBL in open court
on January 22, 2018 appear at Appendix 17a
The Ninth Circuit’s Order denying rehearing
appears at Appendix 30a.
II.

JURISDICTIONAL STATEMENT

The Ninth Circuit Court of Appeals entered its
Memorandum opinion affirming Mr. Carlson’s
convictions on November 7, 2019. See App. 1a.
The Ninth Circuit entered its Order denying
Mr. Carlson’s timely Petition for Rehearing on
November 26, 2019. See App. 30a.
This Court has jurisdiction pursuant to 28
U.S.C. § 1254(1).

2
III.

CONSTITUTIONAL PROVISION INVOLVED

The Sixth Amendment to the United States
Constitution provides:
In all criminal prosecutions, the accused
shall enjoy the right to a speedy and
public trial, by an impartial jury of the
State and district wherein the crime
shall have been committed, which
district shall have been previously
ascertained by law, and to be informed of
the nature and cause of the accusation;
to be confronted with the witnesses
against him; to have compulsory process
for obtaining witnesses in his favor, and
to have the Assistance of Counsel for his
defense.
IV.
A.

STATEMENT OF THE CASE

INTRODUCTION

On the Friday prior to trial—the result of which
would be a mandatory 15-year sentence if he was
convicted—Gerald Carlson traveled approximately
two hours to meet with his attorney, Karen Unger, to
prepare for trial. In their prior meetings, counsel
emphasized her opinion that Mr. Carlson should plead
guilty, but did not discuss trial strategy.
During this meeting, counsel provided a copy of
the Government’s motions in limine and trial brief,
which noted that the Defense had not filed any pretrial motions. Mr. Carlson was shocked that he was
proceeding to trial based on drugs discovered
pursuant to search warrant, yet counsel failed to file

3
to file a motion to suppress. Mr. Carlson was likewise
shocked that counsel had not filed a motion to
suppress his alleged statements, which were
potentially incriminating. Despite his congestive
heart failure and corresponding explanation that
methamphetamine increased his heart function,
counsel also failed to obtain his medical records.
Counsel, finally, provided discovery for the first time.
Mr. Carlson, as a result, told Unger that he no
longer wanted her representation. She contacted the
clerk, who was unable to schedule a hearing until the
following Monday, the first day of trial. Unger assured
Mr. Carlson that the Court would grant a continuance
to permit him to retain new counsel.
During the subsequent ex parte colloquy, Mr.
Carlson specifically sought to terminate his attorney
because she: had not filed any motions; had conducted
only the briefest investigation; never discussed trial
strategy; requested continuances to accommodate her
busy schedule; and only communicated to Mr. Carlson
her belief that he should plead guilty. He had relied
upon her to exercise diligence, competence, and
promptly communicate with him, but instead
discovered on the eve of trial that counsel had done
very little work in his case, had filed no motions to
suppress, had no witnesses to present at trial, and
was, generally, poorly prepared to proceed to trial.
Given these circumstances, the trial court
erroneously deprived Mr. Carlson of his constitutional
right to the attorney of his choice in favor of vague
efficiency concerns.
The Ninth Circuit, in turn, ignored the body of
case law holding that such vague concerns for

4
efficiency cannot trump a criminal defendant’s Sixth
Amendment right to counsel of choice.
The Ninth Circuit thus also sanctioned such a
departure by the District Court as to warrant an
exercise of this Court’s supervisory power.
B.

BACKGROUND FACTS

Gerald Carlson toiled as a power lineman for 32
years before retiring due to congestive heart failure
and Type 2 insulin dependent diabetes. In early 2009,
he succumbed to pneumonia, which required
hospitalization. He lost 63 pounds in water weight due
to heart failure, and was diagnosed with congestive
heart failure and diabetes. His heart doctor then
advised that he was no longer able to work.
While employed, Mr. Carlson earned a
significant amount of money. Upon retirement, he
continued to receive compensation through his union
benefits, a Vanguard annuity fund, and Social
Security. In addition to the $4,200.00 he receives
monthly and his casino winnings, he collected a
substantial insurance settlement just prior to
retirement. Due to the mortgage crisis, moreover, Mr.
Carlson did not make a house payment for seven
years; all he had were power, water, and internet bills.
On advice from a friend that methamphetamine
would help his heart, Mr. Carlson began using the
drug. The methamphetamine helped increase his
heart rate from 10% when he was first diagnosed in
2009 to 28% in 2016. While he had previously
purchased a few ounces of methamphetamine to selfmedicate, about one month before execution of the
search warrant on his property, Mr. Carlson bought
his first pound for his own personal consumption.

5
During service of a search warrant, officers
located over 500 grams of methamphetamine, a host
of firearms, scales, baggies, $34,000 in cash, and a
loan/ suspected drug ledger. While most of the guns,
which Mr. Carlson could legally possess, were locked
in a safe, two of the weapons were in the bedroom
where officers discovered the drugs.
As to the firearms, Mr. Carlson hunts, fishes,
and has always been an outdoorsman. Others also
entrusted their guns to him for safe storage.
The Government charged Mr. Carlson by
Indictment dated May 3, 2017 with Count 1,
possession
with
intent
to
distribute
methamphetamine, and Count 2, possession of a
firearm in furtherance of a drug trafficking offense.
Karen Unger was initially appointed as counsel, and
Mr. Carlson later retained her; she entered her official
Notice of Appearance on May 22, 2018.
C.

FACTS RELEVANT TO THE TRIAL COURT’S
ERRONEOUS DEPRIVATION OF MR.
CARLSON’S SIXTH AMENDMENT RIGHT
TO RETAINED COUNSEL OF HIS CHOICE1

Jury trial commenced on January 22, 2018. Mr.
Carlson immediately, even before jury selection,
attempted to fire Unger so he could retain new counsel
of his choice.
During an ex parte colloquy, defense counsel
related that although she had maintained contact
with Mr. Carlson and had filed all of the motions she
1 The following factual recitation is primarily a summary of the
trial court’s findings of fact and conclusions of law that are
contained in Appendix 17a-29a.

6
felt were relevant (this actually consisted of just one
motion and no trial brief, which was required by LCrR
23.1), Mr. Carlson no longer had any confidence in her
and told her the prior Friday before trial that he did
not want her to represent him. Counsel immediately
contacted the court clerk to relay that Mr. Carlson
wanted to retain new counsel. See App. at 17a-19a.
Mr. Carlson apprised the court that when he
met with counsel, they did not discuss the specifics of
the case, but rather talked about a potential plea
resolution. More specifically, when he met with her
the Friday prior to trial, he “didn’t see anything she
has done to prepare for my defense or anything.” He
was shocked and appalled that he was proceeding to
trial, yet counsel failed to file a motion to suppress the
search warrant or a motion to suppress his
statements. Id. at 19a-20a.
The court rejoined that the case is “pretty
straightforward” and that it had “looked at all of the
evidence, trial memorandum.” Id. at 19a. The defense,
however, did not file a trial memorandum.
Mr. Carlson responded that counsel filed to file
any motions to suppress; the court replied that
counsel “almost succeeded” on her motion to exclude
the expert witness. Id.
Mr. Carlson cited to irreconcilable differences
between he and counsel and stated that he did not
believe she was going to offer any defense. Id. at 20a.
The court then asked whether Mr. Carlson had
sought the services of a different attorney. He
answered that he did not realize he needed a new
attorney until after he met with Ms. Unger the prior
Friday afternoon and that he thus did not yet have
time to find new counsel. Id.

7
The court admonished that Mr. Carlson “waited
way beyond the 11th hour.” Due to the “compelling”
evidence, “it strikes me that that is little more than an
effort to delay the inevitable.” The court continued:
“You know, you throw [the alleged confession] out, and
you are still left with meth, guns, money, Pay O,
scales. Is that a romper room for your grand[kids]?”
The court also referenced the cash officers found,
much of it bundled into $1,000 stacks. Id. at 20a-21a.
Mr. Carlson explained that the guns were
locked in a safe, he knew nothing of any drug ledger,
and he kept his money divided into easy to use bundles
in his safe. He then declined the court’s question
invitation to represent himself. Id.
The court cited to the two continuances
requested by defense counsel due to her busy schedule
and because her daughter had a baby as contrary to
the public’s interest in speedy trials, and asked
whether counsel was ready to proceed to trial. Counsel
stated she was ready for trial and had met with Mr.
Carlson enough times to prepare. Id. at 21a-22a.
Unger did acknowledge, though, that on the
prior Friday, Mr. Carlson pointed to several
deficiencies in the search warrant application which
he supposedly had not previously broached. Id. at 22a.
The reason for this is clear from the record—they had
never before had a substantive conversation about the
propriety of the search warrant.
The court noted that it had read Brown v.
United States2 and other opinions and was “mindful
of the public’s right. The defendant has serious rights
to be protected and guarded against abuse. The public
has an equal – a right to see justice occur
2 United States v. Brown, 785 F.3d 1337 (9th Cir. 2015).

8
expeditiously, efficiently, and not allow people to
make a mockery of the rule of law.” The court further
noted that it would have ordered detention despite the
magistrate’s decision otherwise. The court thus denied
the motion. Id at 22a-23a.
In open court on the record, the court
summarized: “He had not retained another lawyer.
My reasons are delay. He is just – it is just a game.
That is what I said.” The court then, again, pointed to
the two continuances—granted to accommodate
defense counsel’s busy schedule—to support its
decision. Id. at 24a.
Mr. Carlson, though, was about to proceed to
trial on charges that would result in a mandatory
minimum term of incarceration of 15 years if the jury
found him guilty, yet counsel filed no motions to
suppress. This was no game, but rather Mr. Carlson’s
last-minute realization that counsel had taken his
money and done no work—other than pushing a plea
deal in which he had little interest.
The Court, further indicating its opinion of Mr.
Carlson, iterated: “It is not my first rodeo, but I have
been bucked off a couple of times.” Id.
The court added that it spent more than twice
as many hours on the bench as any of its colleagues
and that its “trial schedule is packed going forward. I
like being in trial and giving people a chance to tell
their story. That puts added pressure on the existing
schedule, and to stay to it to the best of my ability.” Id.
at 26a. The court, though, did not expressly find that
a continuance would impact its calendar.
In a follow up ex parte colloquy, counsel
reiterated that Mr. Carlson had no confidence in her,
he was upset he could not retain different counsel, and

9
they did not agree as to the specifics of the case. The
court responded by lauding the Unger’s skills and
terminating any further discussion of the matter: “Ms.
Unger is one of the premier defense lawyers that
comes in time and time again into my courtroom to
represent her client. I have every confidence in Ms.
Unger. If I were ever in trouble, I would always be in
front of a jury, not a judge, and Ms. Unger would be
on my short list.” Id. at 28a-29a.
The Court thus denied Mr. Carlson’s Sixth
Amendment motion based on its: (1) own assessment
of the evidence—absent any motions to suppress or
trial brief; (2) misplaced confidence in the abilities of
defense counsel; and (3) vague notion of delay.
D.

THE NINTH CIRCUIT’S MEMORANDUM
OPINION

In its Memorandum Opinion, the Ninth Circuit
correctly delineated the controlling standards, but
seems to have considered only the following:
The issue did not arise until the Friday
before the Monday that Carlson’s trial
was scheduled to begin. Though the
attorney had been representing him for
more than six months, it was on that
Friday that Carlson told her that he
wanted to replace her. The attorney
notified the clerk that day but the matter
could not be presented to the court until
the following Monday morning when
trial was to begin. By that time, a jury
pool had been gathered, and counsel and
witnesses were prepared to proceed with
trial. Carlson did not want to represent

10
himself, so he would need new counsel if
the prior attorney was dismissed, but he
had not obtained or even sought another
attorney by the day trial was to begin,
though he had not been in custody. In
denying the request, the district court
noted that its calendar was busy, that
two continuances had already been
granted in the case, and that granting
the request would cause delay.
See. App. at 2a-3a.
The Ninth Circuit acknowledged that the trial
court’s “description of its reasons for denying the
request may not have been stated in the clearest and
most comprehensive manner,” but nonetheless found
that “it is apparent here that the denial was primarily
based on the demands of its calendar.” Id. at 2a.
E.

PROCEDURAL HISTORY/ BASIS FOR
FEDERAL JURISDICTION

The Government charged Mr. Carlson by
Indictment dated May 3, 2017 with: Count 1,
possession
with
intent
to
distribute
methamphetamine, in violation of 21 U.S.C. §§
841(a)(1) and 841(b)(1)(A) and 18 U.S.C. § 2, and
Count 2, possession of a firearm in furtherance of a
drug trafficking crime, in violation of 18 U.S.C. §§
924(c)(1)(A) and (2). The district court thus had
jurisdiction under 18 U.S.C. § 3231, which grants
district courts original jurisdiction of all offenses
against the laws of the United States.
A jury found Mr. Carlson guilty of the charged
offenses on January 25, 2018. On April 27, 2018, the
District Court imposed a sentence of 180 months in a

11
final Judgment and Sentence. See App. at 5a. The
Ninth Circuit thus had jurisdiction over the direct
appeal pursuant to 28 U.S.C. § 1291, which grants
federal appellate courts jurisdiction of appeals from
all final decisions of the district courts.
Mr. Carlson timely filed his appeal. While still
pending, he filed an Urgent Motion for Release
Pending Appeal to obtain hip replacement surgery
that had been previously scheduled. In order to
maintain his blood sugar level for his diabetes as well
as maintain (and hopefully increase) his heart
function, Mr. Carlson needs to be as active as he
possibly can. But, due to the pain from his untreated
hip—for which he was scheduled to receive surgery in
February of 2018—he could not exercise, and he was
losing heart function while his blood sugar levels were
rising. If this persisted, Mr. Carlson would likely die
prematurely in custody.
Before the hearing on the motion, the
Government transferred Mr. Carlson to the Federal
Medical Center at Rochester, Minnesota. He still has
not gotten the hip surgery, but at least his heart
condition and diabetes are being monitored.
The Ninth Circuit entered its Memorandum
Opinion affirming Mr. Carlson’s convictions on
November 7, 2019. See App. at 1a.
Mr. Carlson then timely filed a Petition for
Rehearing, which was denied on November 26, 2019.
See App. at 30a.
V.

REASONS FOR GRANTING THE PETITION

As the Ninth Circuit ignored conflicting
decisions from the Ninth Circuit holding that: the
public right to trial cannot prevail over a criminal

12
defendant’s Sixth Amendment right to counsel of his
choice; the extent-of-conflict inquiry thus does not
apply to motions to substitute retained counsel; and
vague calendar concerns are an insufficient basis to
deny a motion to terminate retained counsel, this
Court should grant the petition for writ of certiorari.
In like manner, given that the Ninth Circuit
sanctioned the District Court’s egregious departure
from the usual course of proceedings, exercise of this
Court’s supervisory power is warranted.
Finally, guidance from this Court is required in
regards to what standard to apply to motions to
terminate retained counsel in order to retain new
counsel.
A.

THE CARLSON COURT’S MEMORANDUM
OPINION CONFLICTS WITH OTHER NINTH
CIRCUIT DECISIONS HOLDING THAT
ONLY
SIGNIFICANT
DELAY
CAN
OVERRIDE
A
DEFENDANT’S
SIXTH
AMENDMENT RIGHT TO COUNSEL OF HIS
OR HER CHOICE AND THE EXTENT OF
CONFLICT INQUIRY DOES NOT APPLY TO
MOTIONS TO SUBSTITUTE RETAINED
COUNSEL

The District Court employed the extent-ofconflict inquiry and cited only to some vague notion of
delay, but did not find that the requested substitution
would cause significant or undue delay sufficient to
override Mr. Carlson’s Sixth Amendment right to
retained counsel of his choice. The Ninth Circuit, in
turn, overlooked the relevant body of precedent
commanding that the extent-of-conflict inquiry is
inapt in such circumstances and there must be not

13
just mere delay, but rather substantial or undue delay
to justify abrogating a defendant’s Sixth Amendment
rights in favor of administration-of-justice concerns.
It is now axiomatic that a defendant who can
afford to retain counsel has a Sixth Amendment
constitutional right “to be represented by the
attorney of his choice.” United States v. Brown, 785
F.3d 1337, 1343–44 (9th Cir. 2015) (adding emphasis)
(quoting United States v. Rivera-Corona, 618 F.3d
976, 979 (9th Cir. 2010) (citing United States v.
Gonzalez–Lopez, 548 U.S. 140, 147–48, 126 S.Ct.
2557, 165 L.Ed.2d 409 (2006)). “This ‘right to select
counsel of one’s choice’ is ‘the root meaning of the
constitutional guarantee’ found in the Sixth
Amendment.” Id. (quoting Gonzalez–Lopez, 548 U.S.
at 147–48). The denial of this right thus “does not
depend on ‘the quality of the representation ...
received.’” Id. at 1344 (quoting Gonzalez–Lopez, 548
U.S. at 148).
While this right is not absolute, there are few
limitations: it does not apply to indigent defendants; a
defendant may not insist on representation by a nonbar member or demand waiver of conflict-free
representation; the trial court has wide latitude in
balancing the right against the needs of fairness and
against its calendar demands; and the trial court has
“an independent interest in ensuring that criminal
trials are conducted within the ethical standards of
the profession and that legal proceedings appear fair
to all who observe them.” Gonzalez-Lopez, 548 U.S. at
151-52 (citations omitted).
Unless, therefore, “the substitution would
cause significant delay or inefficiency or run afoul of
the other considerations we have mentioned, a
defendant can fire his retained or appointed attorney

14
and retain a new attorney for any reason or no
reason.” Rivera-Corona, supra, at 979-80.
Denial of the right to counsel of one’s choice is
structural error mandating new trial without a
showing of prejudice. Brown, supra, at 1350 (citing
Gonzalez-Lopez, supra, at 150).
As the right to counsel of choice is more
expansive than the right to effective assistance, the
“three-part-extent-of-conflict analysis” applicable to
defendants seeking new appointed counsel is
inapposite. Rivera-Corona, supra, at 979 (citation
omitted). Instead, a defendant who can retain counsel
“may have the counsel of his choice unless a contrary
result is compelled by ‘purposes inherent in the fair,
efficient and orderly administration of justice.’” Id.
(citation omitted).
While the Carlson Court correctly iterated the
general controlling standards, it ignored the
requirement that only substantial or undue delay can
constitute a sufficient administration-of-justice
concern so as to outweigh this core Sixth Amendment
right post Gonzalez-Lopez. See App. at 1a.
Subsequent
to
Gonzalez-Lopez,
the
fundamental Sixth Amendment right to retain
counsel of choice no longer equally balances with other
rules, inconveniences, and impediments. While a trial
court must still balance the core right against
efficiency considerations, the latter must be
“compelling” to prevail. A trial court also, of course,
maintains an “independent interest in ensuring that
criminal trials are conducted within the ethical
standards of the profession and that legal proceedings
appear fair to all who observe them.” 548 U.S. at 152.

15
With respect to delay, the Rivera-Corona Court
was unequivocal: “Unless the substitution would
cause significant delay … a defendant can fire his
retained or appointed attorney for any reason or no
reason.” 618 F.3d at 978-80 (boldface added, italics in
original). “Because an additional constitutional right
is at stake, such motions have never been governed by
the three-part extent-of-conflict analysis applicable to
defendants seeking new court-appointed counsel.” Id.
(emphasis added).
The Court then held, in dicta: “Conflict between
the defendant and his attorney enters the analysis
solely when the court is required to balance the
defendant’s reason for requesting substitution against
the scheduling demands of the court.” Id. at 980
(citation omitted). But, the Court also held that such
“extent-of-conflict review is inappropriate here,”
where the defendant wishes to discharge retained
counsel. Id. at 981.
In the more recently decided Brown, the Court
was explicit: “The appropriate standard must reflect
the Sixth Amendment right which governs a
particular case. Where, as here, the right to retained
counsel of choice is implicated, Rivera-Corona
specifically held that ‘the extent-of-conflict review” is
inappropriate.” 785 F.3d at 1346 (emphasis added)
(quoting Rivera-Corona, 618 F.3d at 981). The very
beginning of the Brown opinion, in fact, states:
United States v. Rivera–Corona, 618
F.3d 976 (9th Cir.2010), held that an
indigent criminal defendant need not
establish a conflict with his attorney
amounting to the constructive denial of
counsel as a prerequisite to substituting
appointed counsel for his retained

16
attorney. The district court in this case,
like the parties, appears to have been
unaware of Rivera–Corona, and instead
applied
the
conflict
requirement
applicable to substitutions of appointed
counsel for appointed counsel … A
defendant enjoys a right to discharge his
retained counsel for any reason …”
Id. at 1340.
Absent significant delay, then, a defendant has
a nearly unconditional right to discharge retained
counsel, subject to the standard constitutional
prerequisites. See, e.g., Brown, supra.
Brown is directly analogous and highlights the
errors made by the district and appellate courts. In
Brown, two and one-half weeks prior to trial, Brown’s
retained counsel filed a motion to withdraw. 785 F.3d
at 1341. Citing strained communications and an
actual conflict of interest, counsel advised that Brown
wanted him to withdraw and attached an email from
Brown attesting thereto. One week later, counsel filed
a motion to continue. Id.
At the hearing on the motion to withdraw,
counsel informed the court of the “extreme divergence
of philosophical opinion as to how the case should be
carried on.” The court then inquired whether the true
basis of the motion to withdraw was Brown’s failure
to pay the trial fee; counsel reiterated that there was
a significant trust issue. Id. The court then ordered
the hearing to be continued ex parte, obtained Brown’s
assent as to the motion, and explained that as
withdrawal would necessitate a continuance, the
court found “great fault with your late filing of this
motion, on the eve of trial, and what appears to be

17
simply because there’s a disagreement over payment
and your inability, or unwillingness, to prepare for
trial. Id.
Counsel replied that there was no fee dispute
and he was ready to proceed to trial, but Brown
wanted him to withdraw.
During a colloquy with the court, Brown—like
Mr. Carlson—related that he and counsel had never
discussed his defense and all of their communications
focused on potential plea resolution. Id. at 1342.
Similar to here, the court then complimented
counsel’s skills and advised that counsel was required,
subject to ethical constraints, to present the case and
Brown’s defenses. The court ascertained that
although Brown had difficulty paying counsel and
eventually fulfilled his payment plan, Brown still
believed it was an issue because it had always been an
issue. Id. After ensuring that counsel would not set up
an ineffective assistance of counsel claim, the court
denied the motion for withdrawal, but granted a
continuance. Id. at 1342-43.
Applying the standards from Gonzalez-Lopez,
supra, and Rivera-Corona, supra, the Brown Court
concluded that the trial court abused its discretion in
denying the motion to withdraw. Id. at 1347. The
Court first noted that the trial court failed to conduct
a proper analysis of Brown’s right to his choice of
counsel and focused, instead, on counsel’s reasons for
withdrawing: “But where, as here, it is apparent that
the defendant, not the attorney, instigated the
withdrawal
motion,
the
defendant’s
Sixth
Amendment rights should trump whatever concerns
the court has about the lawyer’s motives.” Id. As the
Court specifically held:

18
The district court did not explicitly
discuss either the constitutional right to
retained counsel of choice or the extentof-conflict analysis. Nor, indeed, did it
ever discuss how, if at all, it believed
Brown's Sixth Amendment rights were
implicated. But, to the extent that the
court did implicitly consider a Sixth
Amendment right, it focused on
considerations pertinent to the right to
constitutionally
adequate
counsel,
rather than to the right to choice of
counsel
Brown
actually
enjoyed.
Reflecting
the
district
court's
misunderstanding of the right at issue,
the reasons the district court gave for
denying the motion are inadequate to
preclude the discharge of retained
counsel.

Id.
As in the present case, Brown’s reasons for
terminating representation included: (1) extreme
philosophical differences; (2) lack of communication;
and (3) financial tensions. Id. at 1348. The Brown
Court held that “any of these concerns was more than
sufficient” to warrant withdrawal. “Brown’s reasons
for wanting to discharge his retained lawyer were not
properly the court’s concern at all. He had the right to
‘fire his retained lawyer … for any reason or [for] no
reason.” Id. (adding emphasis) (quoting RiveraCorona, supra, at 980).
The trial court’s consideration of the potential
quality of the representation was, in turn, misplaced.
Id. at 1348-49 (citing Gonzalez-Lopez, supra, at 148)
(the right to counsel of choice is “the right to a

19
lawyer regardless
effectiveness”) (adding emphasis).
particular

of

comparative

As to the trial court’s concerns about delay, the
Brown Court concluded that the trial court “did not, in
fact, deny the motion because of ‘the demands of its
calendar’ … nor, on this record, would that concern
suffice as an administration-of-justice basis for denial
of the constitutional right to discharge retained
counsel.” Id. at 1349 (quoting Gonzalez-Lopez, supra,
at 148). The Court then found that even if delay was
an issue, the court granted a continuance and never
inquired how much time it would take for new counsel
to get up to speed. Id.
Here, although the trial court pronounced that
it was familiar with Brown, it nonetheless seems to
have engaged in a haphazard and insufficient
constructive denial of counsel/ extent-of-conflict
inquiry—but without finding that substitution would
cause significant delay.
The court, moreover, deemed the case
“straightforward,” yet never made any attempt to
ascertain how long it would take for Mr. Carlson to
retain new counsel—or provide him the opportunity to
seek such information. More importantly, the court
never entered any findings that the substitution
would cause significant delay.
The Ninth Circuit found that the district court’s
“description of its reasons for denying the request may
not have been stated in the clearest and most
comprehensive of manner,” but that it was
nonetheless “apparent here that the denial was
primarily based on the demands of its calendar the
district court noted that its calendar was busy, that
two continuances had already been granted in the

20
case, and that granting the request would cause
delay.” App. at 2a-3a.
But, neither Court found that there would be
significant or undue delay sufficient to undermine the
Sixth Amendment. Lacking such a finding, the
Carlson Court’s Memorandum Opinion conflicts with
Brown and Rivera-Corona and warrants review by
this Court. This joint error that departed so far from
the accepted course of judicial proceedings also
warrants exercise of this Court’s supervisory power.
As further argued below, this Court should
grant Mr. Carlson’s Petition to delineate proper
application of the extent-of-conflict inquiry and, more
specifically, what standard to apply to motions to
substitute retained counsel for retained counsel.
B.
THE CARLSON COURT’S MEMORANDUM
OPINION CONFLICTS WITH OTHER NINTH
CIRCUIT CASES HOLDING THAT A COURT
MUST BALANCE A DEFENDANT’S SIXTH
AMENDMENT RIGHT TO COUNSEL OF
CHOICE
WITH
THE
DELAY
AND
INCONVENIENCE
RESULTING
FROM
SUBSTITUTION OF COUNSEL
Rather than conduct such balancing, the trial
court held merely that Mr. Carlson’s motion to
terminate counsel was untimely. There was no inquiry
about how much additional time new counsel would
require or the nature of any resulting delay or
inconvenience. The Carlson Court sanctioned this lack
of balancing and seemed to have blindly followed the
trial court’s errant lead.
In evaluating timeliness, a court balances “the
resulting inconvenience and delay against the
defendant's important constitutional right to counsel

21
of his choice.” Daniels v. Woodford, 428 F.3d 1181,
1200 (9th Cir. 2005) (citations omitted). “Even if the
trial court becomes aware of a conflict on the eve of
trial, a motion to substitute counsel is timely if the
conflict is serious enough to justify the delay.” Id.
(citing United States v. Adelzo–Gonzalez, 268 F.3d
772, 780 (9th Cir. 2001). No specific amount of
advance notice is required “because sometimes, a
defendant would be unable to make a motion until
shortly before trial—such as in a case where a
defendant realized his or her counsel was not
prepared.” United States v. Velazquez, 855 F.3d 1021,
1037 (9th Cir. 2017)
This case exemplifies such circumstances.
Where the motion is “made on the day of trial,
the court must make a balancing determination,
carefully weighing the resulting inconvenience and
delay
against
the
defendant’s
important
constitutional right to counsel of his choice.” AdelzoGonzalez, 268 F.3d at 780 (citation omitted). In
Adelzo-Gonzalez, for example, the Court found a
motion for substitution timely even though it was filed
the day before trial.
The Court’s reasoning is apropos here:
The district court made no inquiry into
the extent of delay or inconvenience from
bringing in a new attorney on the day
before trial. Nor was any attempt made
to determine whether there was any
means, perhaps involving the [retained]
counsel's cooperation, of permitting the
substitution without causing excessive
delay. Although our ability to evaluate
the timeliness of this last motion is

22
hampered by the court's inadequate
inquiry, we cannot conclude that any
delay which would have been required to
allow for substitution of attorneys
justified denial of the motion. Here, as
in United States v. Nguyen, the district
court ‘failed to adequately balance
Nguyen's Sixth Amendment rights
against any inconvenience and delay
from granting the continuance.’ 262 F.3d
998, 1004 [(9th Cir. 2001)].

Id.
The Nguyen Court, in turn, held that the “mere
fact that the jury pool was ready for selection or even
that the jury was ready for trial does not
automatically outweigh [a defendant’s] Sixth
Amendment right.” 262 F.3d at 1004. The critical
questions are the length of any needed continuance,
the degree of inconvenience caused by the delay, and
why the motion was not made earlier. Id. at 1005
(citations omitted). In Nguyen, Adelzo-Gonzalez, and
here, as the district court failed to ask about and
consider such questions, “the inquiry was
inadequate.” Id.
Here, the length of any continuance—about
which the district court failed to query—would be
short, even in the trial court’s estimation; there would
be little inconvenience—about which the district court
failed to query—to the few witnesses; and Mr. Carlson
could not have possibly filed his motion any earlier
because he was unaware the deficiencies in his
representation until just three days before trial. Only
then did he realize that if he proceeded with present
counsel, he would surely be convicted and sentenced
to the 15-year mandatory minimum—which is amply

23
demonstrated on the record. All of these
considerations dictate that his motion, though on the
morning of trial, was nevertheless timely.
As Carlson thus conflicts with Adelzo-Gonzales
and Nguyen, this Court should grant Mr. Carlson’s
Petition.
C.

THIS COURT SHOULD DETERMINE WHEN
AND UNDER WHAT CIRCUMSTANCES THE
EXTENT-OF-CONFLICT INQUIRY, WHICH
MANDATES REVERSAL, APPLIES

As noted above, the Rivera-Corona Court held
that the extent-of-conflict inquiry cannot apply to a
defendant’s motion to substitute retained counsel due
to the additional constitutional right at stake. 618
F.3d at 978.
The Court then held, in dicta, that conflict
between the defendant and his or her attorney may
enter the analysis (which analysis—appointed for
retained, retained for appointed, or retained for
retained—though, is unclear) solely when “the court is
required to balance the defendant’s reason for
requesting substitution against the scheduling
demands of the court.” Id. at at 980 (citations omitted).
But, the Court also held that such “extent-ofconflict review is inappropriate here,” where the
defendant wishes to discharge retained counsel. Id. at
981.
The Brown Court then held that under RiveraCorona, the extent-of-conflict inquiry is inapposite to
cases involving retained counsel. 785 F.3d at 1346.
The standard to be applied is thus unclear.

24
If Brown controls, the district court and the
Carlson Court erred in failing to enter a finding that
the substitution would cause significant or undue
delay.

If the seeming dicta from Rivera-Corona
applies, both the district court and Carlson Court
failed to enter a finding that the substitution would
cause significant or undue delay such as to trigger
application of the extent-of-conflict inquiry.
Under either standard, then, the Carlson
Court’s Memorandum Opinion is in conflict as it lacks
a finding that the substitution would cause significant
or undue delay. The Court held only that the trial
court did not err in denying the motion to terminate
retained counsel based upon its vague calendar
concerns.
Assuming, arguendo, that there would be
substantial or undue delay, the extent-of-conflict
inquiry may or may not apply—depending upon
whether Rivera-Corona’s seeming dicta or Brown’s
more definitive statement controls. Again, assuming
it applies, the trial court engaged in an insufficient,
incomplete, and reversible inquiry.
As Mr. Carlson, “with legitimate reason,
completely lost trust in his attorney” and the trial
court refused to remove the attorney, he was
“constructively denied counsel.” United States v.
Velazquez, 855 F.3d 1021, 1033–34 (9th Cir. 2017)
(citing Daniels, supra, at 1198 (citing AdelzoGonzalez, supra, at 779). A showing of prejudice is not
required “when the breakdown of a relationship
between attorney and client from irreconcilable
differences results in the complete denial of counsel.”
Id. at 1034 (citations omitted).

25
To determine whether the district abused its
discretion in denying a motion to substitute counsel,
this Court considers: (1) the adequacy of the district
court’s inquiry; (2) the extent of the conflict between
the defendant and counsel; and (3) the timeliness of
the substitution motion. Id. (citation omitted).
1.
The Court’s Inquiry was Deficient
During the required colloquy on a motion to
substitute counsel, the district court must conduct
“such necessary inquiry as might ease the defendant's
dissatisfaction, distrust, and concern” and which is a
“sufficient basis for reaching an informed decision.”
Adelzo-Gonzalez, supra, at 777 (citations omitted).
Towards this end, the district court “may need to
evaluate the depth of any conflict between defendant
and counsel, the extent of any breakdown in
communication, how much time may be necessary for
a new attorney to prepare, and any delay or
inconvenience that may result from substitution.” Id.
The district court’s inquiry was clearly deficient
in neglecting to ask about the length of any potential
delay and extent of any potential inconvenience. This,
standing alone, seems to mandates reversal.
The court, moreover, through its open-ended
questions, “put the onus on Mr. Carlson to articulate
why … counsel could not provide competent
representation. While open-ended questions are not
always inadequate, in most circumstances a court can
only ascertain the extent of a breakdown in
communication by asking specific and targeted
questions.” Id. at 777-78 (citations omitted). Also here,
as in Adelzo-Gonzalez, the court placed “too much
emphasis on [retained] counsel’s ability to provide
adequate representation and not enough attention to

26
the status and quality of the attorney-client
relationship. Id. at 778
For multiple reasons, then, the district court’s
inquiry was deficient.
2.
The Conflict was Irreconcilable
As noted above, given that Mr. Carlson had,
“with legitimate reason, completely lost trust in his
attorney, and the trial court refuse[d] to remove the
attorney,” he was “constructively denied counsel.”
Velasquez, supra, at 1033-34 (citations omitted). This
applies “even where the breakdown is the result of the
defendant’s refusal to speak with counsel, unless the
defendant’s refusal to cooperate demonstrates
‘unreasonable contumacy.’” Daniels, supra, at 1198
(citations omitted). Even where trial counsel is
competent, “a serious breakdown in communications
can result in an inadequate defense.” Id. (quoting
Nguyen, supra, at 1003-04 (citing United States v.
Musa, 220 F.3d 1096, 1102 (9th Cir. 2000); citing also
United States v. D'Amore, 56 F.3d 1202, 1206 (9th Cir.
1995), (“[A] court may not deny a substitution motion
simply because [it] thinks current counsel's
representation is adequate.”), overruled on other
grounds by United States v. Garrett, 179 F.3d 1143
(9th Cir. 1999).
A defendant is likewise denied his or her Sixth
Amendment right to counsel when he or she is “forced
into a trial with the assistance of a particular
attorney” with whom he or she or dissatisfied, with
whom he or she will not cooperate, and with whom, he
or she will not in any manner whatsoever,
communicate.” Nguyen, supra, at 1003-04 (citing
Brown v. Craven, 424 F.2d 1166 (9th Cir. 1970); see
also Adelzo-Gonzalez, supra, at 779 (“While loss of

27
trust is certainly a factor in assessing good cause, a
defendant seeking substitution … must nevertheless
afford the court with legitimate reasons for the lack of
confidence.”) (citation omitted).
Here, given Mr. Carlson’s complete and total
lack of trust in an attorney he felt had: failed to follow
up on any of his investigative leads, failed to file any
motions to suppress, not spoken with any of his
proposed witnesses, and failed to properly
communicate with him and discuss trial strategy
rather than advocating a plea resolution, he lost any
faith is counsel and thus had legitimate grounds to
terminate retained counsel and substitute new
retained counsel.
3.
The Motion was Timely
Given that Mr. Carlson was unaware of the
grounds for his motion to discharge retained counsel,
his motion was timely as argued in the previous
section.
Even if Mr. Carlson’s motion “could be
considered untimely—a reason the district court
never relied on in its rulings on the motions to
substitute—the court's failure to conduct an adequate
inquiry and the extent of the conflict outweigh any
untimeliness in the balance of factors. Taken together,
the factors weigh in favor of finding an abuse of
discretion.” Velazquez, supra, at 1037.
Under any standard, then, as neither the trial
court nor the Carlson Court entered a finding that the
substitution would cause undue delay, their
conclusions conflict with the holdings in Brown and
Rivera-Corona. This Court should further clarify the
proper standard to apply when a criminal defendant
seeks to substitute new retained counsel for present

28
retained counsel as this issue implicates the core right
of the Sixth Amendment.
VI.

CONCLUSION

For the foregoing reasons, this Court should
grant Mr. Carlson’s Petition for Writ of Certiorari.
DATED this 24th day of February, 2020
Respectfully submitted,
JOHN HENRY BROWNE

COUNSEL OF RECORD FOR PETITIONER
LAW OFFICES OF JOHN HENRY BROWNE, P.S.
801 2nd Avenue, Suite 800
Seattle, WA 98104
(206) 388-0777
johnhenry@jhblawyer.com

